The U.S. Department of Justice Office of the Inspector General (OIG) today released a report
examining an allegation that Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) Special
Agent John Dodson, who provided significant information regarding ATF’s handling of Operation
Fast and Furious, was retaliated against through the unauthorized disclosure in late June 2011
of an ATF memorandum that he had drafted. The OIG investigation determined that Dennis
Burke, who was then the United States Attorney for the District of Arizona, provided the
memorandum to a Fox News producer in violation of Department policies. We also concluded
that Burke’s disclosure was likely motivated by a desire to undermine Special Agent Dodson’s
public criticisms of Operation Fast and Furious.

The ATF memorandum was among the documents the Department of Justice (Department) had
produced to or made available for review by two Congressional committees in connection with
their investigation of Operation Fast and Furious. The OIG requested the Department
components that had a role in the production to identify all personnel whose official
responsibilities required or permitted their access to these documents. In response to this
request, the OIG received the names of 152 employees in 8 Department components, including
Burke, whose U.S. Attorney’s Office was originally responsible for prosecuting subjects identified
in Operation Fast and Furious.

Shortly after the OIG made its request for information from the Department, Burke contacted
an OIG investigative counsel by telephone and said that he had provided the memorandum to a
reporter. The OIG learned during its investigation that Burke also admitted this to several other
individuals after the OIG initiated its investigation, including to the Deputy Attorney
General. The OIG did not identify any other Department employee who disclosed the
memorandum to the same or any other member of the media.

The OIG concluded that Burke’s unauthorized disclosure of the memorandum violated
Department rules pertaining to media relations. The OIG further concluded there was
substantial evidence that Burke’s motive for disclosing the memorandum was to retaliate
against Special Agent Dodson, who two weeks earlier had testified before a Congressional
committee regarding his concerns about Operation Fast and Furious.

The OIG found that Burke’s misconduct was particularly egregious because of his apparent
effort to undermine the credibility of Dodson’s significant public disclosures about the failures in
Operation Fast and Furious. The seriousness of Burke’s actions were further aggravated by the
fact they were taken within days after he told the Deputy Attorney General that he took
responsibility for an earlier unauthorized disclosure of information to The New York Times, and
after the Deputy Attorney General put him on notice that such disclosures should not
occur. Moreover, Burke knew at the time of his disclosure of the Dodson memorandum that he
was under investigation by the Department’s Office of Professional Responsibility for his
conduct in connection with the earlier unauthorized disclosure to The New York Times.

Burke resigned his position as U.S. Attorney on August 30, 2011.

We are referring our finding that Burke violated Department policy to the Department’s Office of
Professional Responsibility for a determination of whether Burke’s conduct violated the Rules of
Professional Conduct for the state bars in which Burke is a member.

The report can be found on the OIG’s website at the following link:
http://www.justice.gov/oig/reports/2013/s1305.pdf.
